No. 20-659
IN THE

Supreme Court of the United States
LARRY THOMPSON,
Petitioner,
v.
POLICE OFFICER PAGIEL CLARK, SHIELD #28472;
POLICE OFFICER PAUL MONTEFUSCO, SHIELD #10580;
POLICE OFFICER PHILLIP ROMANO, SHIELD #6295;
POLICE OFFICER GERARD BOUWMANS, SHIELD #2102,
Respondents.
On Writ of Certiorari to the
U.S. Court of Appeals for the Second Circuit

BRIEF OF AMICI CURIAE CURRENT AND
FORMER PROSECUTORS, DEPARTMENT OF
JUSTICE OFFICIALS, AND JUDGES IN
SUPPORT OF PETITIONER
MARY B. MCCORD
Counsel of Record
KELSI BROWN CORKRAN
AMY L. MARSHAK
SETH WAYNE
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY LAW
CENTER
600 New Jersey Ave., NW
Washington, DC 20001
(202) 661-6607
mbm7@georgetown.edu

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES.................................... ii
INTEREST OF AMICI CURIAE .............................1
SUMMARY OF ARGUMENT ..................................1
ARGUMENT ............................................................3
I.

DISMISSAL DECISIONS SHOULD BE
INDEPENDENT OF CONSIDERATIONS
REGARDING CIVIL LIABILITY ....................5

II. THE MAJORITY RULE POSES AN
UNREALISTIC BURDEN ON § 1983
CLAIMS AND CREATES ARBITRARY
DISTINCTIONS BETWEEN SIMILARLY
SITUATED DEFENDANTS .............................8
A. Dismissals Before Trial Generally Do
Not Include Affirmative Indications of
Innocence ....................................................8
B. The Second Circuit Rule Favors
Defendants Whose Cases are
Terminated by Acquittal or PostConviction Remedies ................................12
III. BARRING CIVIL RIGHTS CLAIMS
WHERE CRIMINAL CHARGES ARE
DISMISSED UNDERMINES FAITH IN
THE JUSTICE SYSTEM ................................16
CONCLUSION .......................................................18
APPENDIX: LIST OF AMICI CURIAE .............. A-1

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Brecht v. Abrahamson,
507 U.S. 619 (1993) ............................................... 16
Heck v. Humphrey,
512 U.S. 477 (1994) ..................................1, 3, 12, 15
Lanning v. City of Glens Falls,
908 F.3d 19 (2d Cir. 2018) ....................................... 4
Laskar v. Hurd,
972 F.3d 1278 (11th Cir. 2020) ................2, 4, 10, 12
Lockhart v. McCree,
476 U.S. 162 (1986) ............................................... 16
Manuel v. City of Joliet,
137 S. Ct. 911 (2017) ....................................... 10, 11
McDonough v. Smith,
139 S. Ct. 2149 (2019) ................................... 3, 8, 12
Thompson v. Clark,
794 F. App’x 140 (2d Cir. 2020) .............................. 4
United States v. One Assortment of 89 Firearms,
465 U.S. 354 (1984) ............................................... 13
Woodson v. North Carolina,
428 U.S. 280 (1976) ............................................... 14
STATUTES
42 U.S.C. § 1983 ................................................ passim
La. Code Crim. Proc. art. 691 .................................... 8
Nev. Rev. Stat § 174.085(5) ....................................... 8

iii
N.Y. Crim. Proc. Law § 170.40 .................................. 6
N.Y. Crim. Proc. Law § 210.40 .................................. 6
RULES & REGULATIONS
Alaska R. Crim. P. 43(a)(1) ........................................ 8
D.C. Super. Ct. Crim. R. 48(a)(1)............................... 8
Del. Super. Ct. Crim. R. 48(a).................................... 8
OTHER AUTHORITIES
Clay S. Conrad, Jury Nullification: The Evolution
of a Doctrine (Cato Inst., 2014), available at
https://perma.cc/VH26-JYBE ................................ 14
Larry Buchanan et al., Black Lives Matter May Be
the Largest Movement in U.S. History, N.Y.
Times (July 3, 2020), https://perma.cc/H9AL2FV6 ....................................................................... 17
U.S. Dep’t of Justice, Justice Manual
§ 9-27.220 cmt., available at
https://perma.cc/95FM-SNLC ............................. 5, 6
Vincent Bugliosi, Not Guilty and Innocent—The
Problem Children of Reasonable Doubt, 4 Miss.
C. L. Rev. 47 (1983) ............................................... 13

1
INTEREST OF AMICI CURIAE
Amici are current and former federal, state, and
local prosecutors, Department of Justice officials, and
judges with experience prosecuting and establishing
policy for prosecuting crimes at various levels of the
criminal justice system.1
Amici recognize that
prosecutors and judges must always conduct their
duties in the interests of justice.
Prosecutors
therefore exercise their discretion to seek dismissal of
criminal charges—and judges grant dismissal—
where there is insufficient evidence to prove the case
beyond a reasonable doubt or when other compelling
circumstances call for dismissal. Amici have an
interest in ensuring that prosecutors’ decisions
whether to pursue criminal charges are not affected
by the impact of a dismissal on future civil claims.
Moreover, amici have an interest in promoting public
trust in the justice system, which is furthered by
individuals’ ability to invoke appropriate mechanisms
to deter police misconduct.
SUMMARY OF ARGUMENT
Under Heck v. Humphrey, a person alleging an
unreasonable seizure pursuant to legal process may
not bring a claim under 42 U.S.C. § 1983 unless and
until there has been a “termination of the prior

Pursuant to Supreme Court Rule 37.6, counsel for amici
certifies that no counsel for a party authored this brief in whole
or in part and that no person or entity, other than amici and
their counsel, made a monetary contribution intended to fund
this brief’s preparation or submission. Counsel of record for all
parties consented to the filing of this brief.
1

2
criminal proceeding in [his] favor.” 512 U.S. 477, 484
(1994).
The Courts of Appeals have reached
contradictory conclusions as to how to apply this
requirement when the charges against a defendant
are dismissed before trial. Although some of the
Courts of Appeals, including the Second Circuit
below, have concluded that to qualify as a “favorable
termination” the plaintiff must prove “affirmative
indications of innocence,” Pet. App. 5a—something
often difficult to demonstrate in the context of a
dismissal—the Eleventh Circuit has held that the
favorable-termination requirement demands only
that criminal proceedings resolve “in a manner not
inconsistent with” the defendant’s innocence. Laskar
v. Hurd, 972 F.3d 1278, 1295 (11th Cir. 2020).
The Second Circuit’s ruling intrudes on impartial
prosecutorial decision-making by attaching a
consequence to dismissals that creates a perverse
incentive to the exercise of prosecutorial discretion.
Amici believe that prosecutors’ decisions about
whether to dismiss or pursue a criminal case to trial
should not be affected by considerations about
whether the defendant may, in the future, seek to
vindicate his constitutional rights through civil
litigation. It serves no prosecutorial interest to deny
the availability of a civil claim absent an affirmative
indication of innocence by the prosecutor at the time
of dismissal. The Second Circuit rule also ignores the
practical circumstances surrounding most pretrial
dismissals and poses an unrealistic burden on
defendants with meritorious claims. Moreover, the
Second Circuit rule creates arbitrary inequities
between the claims of similarly situated defendants
whose cases are dismissed before trial and those who

3
are acquitted at trial or whose convictions are
reversed on appeal or called into question on habeas
corpus review or through executive expungement.
Finally, trust in the justice system is undermined
when a decision to dismiss a case effectively thwarts
a valid claim of police misconduct.
Amici accordingly urge the Court to reverse the
decision of the Second Circuit below and hold that the
“favorable termination” requirement is satisfied if the
termination of the underlying criminal proceeding
was not inconsistent with the plaintiff’s innocence.
ARGUMENT
At issue in this case is the interpretation of the
rule set forth by this Court in Heck v. Humphrey: that
a person who seeks to challenge an unreasonable
seizure pursuant to legal process may not assert a
claim under 42 U.S.C. § 1983 unless and until there
has been a “termination of the prior criminal
proceeding in [his] favor.” 512 U.S. at 484; see also
McDonough v. Smith, 139 S. Ct. 2149, 2157 (2019)
(“[The] favorable-termination requirement is rooted
in pragmatic concerns with avoiding parallel criminal
and civil litigation over the same subject matter and
the related possibility of conflicting civil and criminal
judgments.”). Petitioner Thompson asserts a §1983
claim under the Fourth Amendment alleging the
unlawful institution of legal process—commonly
known as a “malicious prosecution” claim, analogizing
to the common-law tort. The criminal proceedings
against him were dismissed before trial, so he may
assert his claim only if this dismissal qualifies as a
“favorable termination.” Although Heck addressed

4
application of the favorable-termination requirement
in post-conviction circumstances, this Court has not
addressed how it applies when charges are dismissed
before or during trial.
As interpreted by the Second Circuit, the
favorable-termination requirement means that, in
the case of a dismissal of criminal charges, there must
be “affirmative indications” of the defendant’s
innocence to permit a § 1983 suit for damages.
Lanning v. City of Glens Falls, 908 F.3d 19, 25 (2d Cir.
2018); Thompson v. Clark, 794 F. App’x 140 (2d Cir.
2020) (applying Lanning).
By contrast, after
intensively examining the common-law history of
malicious prosecution claims, the Eleventh Circuit
concluded
that
“the
favorable-termination”
requirement “is not limited to terminations that
affirmatively support the plaintiff’s innocence.”
Laskar, 972 F.3d at 1295. “Instead, the favorabletermination element requires only that criminal
proceedings against the plaintiff formally end in a
manner not inconsistent with his innocence on at
least one charge that authorized his confinement.” Id.
Amici urge this Court to endorse the Eleventh
Circuit’s rule and make clear that Heck’s favorabletermination
requirement
does
not
require
“affirmative indications of innocence.” The Second
Circuit’s rule creates unhelpful incentives for
prosecutors in deciding whether to dismiss criminal
charges and, for defendants, whether to dispute
dismissal of charges and pursue acquittal; it does not
serve prosecutorial interests; and it leads to
inequitable results, thereby undermining confidence
in the justice system.

5
I. DISMISSAL DECISIONS SHOULD BE
INDEPENDENT
OF
CONSIDERATIONS
REGARDING CIVIL LIABILITY
Regardless of the outcome of a case, pursuing a
criminal prosecution to completion can be an onerous
affair.
Criminal
defendants
suffer
stigma,
deprivations, and losses of liberty associated with
pending criminal charges. Victims and witnesses
often have their lives disrupted by the prosecutorial
process, and their required participation may be
burdensome or result in re-traumatization. Even
prosecutions of low-level offenses require the
expenditure of limited resources by law enforcement,
prosecuting agencies, courts, and, where needed,
court-appointed defense attorneys.
Accordingly,
among the most important duties of a prosecutor is
the determination of whether to prosecute at all, and
whether, during the course of a prosecution, it
becomes necessary to seek dismissal.
Prosecutorial decisions about whether to pursue
criminal charges are grounded in whether the
admissible evidence likely will be sufficient to prove
every element of the crime beyond a reasonable doubt.
See U.S. Dep’t of Justice, Justice Manual § 9-27.220
cmt., available at https://perma.cc/95FM-SNLC
(directing prosecutors not to initiate criminal charges
unless they believe “that the admissible evidence is
sufficient to obtain and sustain a guilty verdict by an
unbiased trier of fact”). This focus is both “a matter
of fundamental fairness and in the interest of the
efficient administration of justice.”
Id.
The
prosecutorial obligation to seek dismissal of charges if
the evidence is insufficient persists throughout the

6
life of a criminal case as new evidence emerges,
further investigation puts evidence in a new light, or
witnesses become unavailable to testify.
Prosecutors also appropriately have discretion to
consider other factors in determining whether to
pursue charges or seek dismissal. These include
concerns about the purpose and efficacy of criminal
punishment in a given case, public confidence in the
justice system, and the avoidance of waste of
government resources on purposeless or even harmful
prosecutions. Accordingly, a prosecutor may decline
to charge a criminal case or may seek dismissal of
pending charges even when she has sufficient
evidence to prove guilt. For example, in New York, a
court may dismiss criminal charges on motion of the
prosecutor
where
compelling
circumstances
demonstrate that prosecution of the defendant “would
constitute or result in injustice.” N.Y. Crim. Proc.
Law §§ 170.40, 210.40 (establishing as factors, inter
alia, “the seriousness and circumstances of the
offense,” “the evidence of guilt,” “the impact of a
dismissal upon the confidence of the public in the
criminal justice system,” and, where appropriate, “the
attitude of the complainant or victim” as to
dismissal).2
It is these considerations—not whether a
defendant may later file a civil lawsuit, or, for that
matter, whether a crime victim might later file her

The prosecutor stated in Petitioner Thompson’s criminal case
that the dismissal was “in the interest of justice,” Pet. App 19a,
but no law was cited and no reasons were put on the record.
2

7
own suit—that should inform a prosecutor’s decision
whether to pursue or maintain charges against a
given defendant. The possibility of future civil claims
should play no role in impartial prosecutorial
decision-making about whether a case should be
brought to trial.
The Second Circuit rule violates these principles
by attaching a consequence to prosecutorial decisions
that creates a perverse incentive to the exercise of
prosecutorial discretion.
As the district court
explained in this case, if dismissals in the “interest of
justice” effectively “bar malicious prosecution claims,”
prosecutors would have “almost unlimited power to
bar such claims, regardless of the strength or
weakness of the underlying accusations.” Pet. App.
46a. Although amici do not believe that an ethical
prosecutor would make a dismissal decision in order
to deliberately deny a civil cause of action to an
individual, an unscrupulous prosecutor could be
motivated to seek dismissal of charges in such a way
as to shield himself or police officers with whom he
works from facing civil liability—knowing that most
criminal defendants will have no realistic choice but
to accept the dismissal. The Second Circuit rule could
even place pressure on a prosecutor to dismiss a
meritorious criminal charge against a defendant in
order to avoid the uncertainty of trial and the
attendant possibility of acquittal and subsequent civil
liability.

8
Moreover, to the extent that defendants have the
ability to oppose dismissal,3 it makes little sense to
force them to do so in order to preserve their ability to
file a civil claim later. Forcing a case to trial in order
to obtain an acquittal—treated categorically as a
favorable termination, see McDonough, 139 S. Ct. at
2160 n.10—would needlessly burden prosecutors,
victims, witnesses, and the judiciary.
In short, potential civil liability should play no role
in prosecutorial decision-making. By imposing a
heightened standard of innocence on the dismissal
decision—as opposed to the “not inconsistent with
innocence” standard adopted by the Eleventh
Circuit—the Second Circuit rule injects an
unwarranted consideration into the exercise of
prosecutorial discretion.
II. THE SECOND CIRCUIT RULE POSES AN
UNREALISTIC BURDEN ON § 1983 CLAIMS
AND CREATES ARBITRARY DISTINCTIONS
BETWEEN
SIMILARLY
SITUATED
DEFENDANTS
A. Dismissals Before Trial Generally Do
Not Include Affirmative Indications of
Innocence.

In a number of jurisdictions, prosecutors have discretion to
dismiss at least some categories of criminal cases before trial
without leave of the court or the defendant. See, e.g., Alaska R.
Crim. P. 43(a)(1); Del. Super. Ct. Crim. R. 48(a); D.C. Super. Ct.
Crim. R. 48(a)(1); La. Code Crim. Proc. art. 691; Nev. Rev. Stat
§ 174.085(5).
3

9
Because dismissal may be based on a number of
considerations, a dismissal alone is generally not an
“affirmative indication[] of innocence” sufficient to
meet the high bar of the Second Circuit test for
favorable termination. Pet. App. 5a. In amici’s
experience, a prosecutor’s determination that she is
unlikely to be able to prove a case beyond a reasonable
doubt based on admissible evidence is often not
probative of innocence or guilt. And even where the
prosecutor gives a reason for the dismissal, that
reason may not be sufficient to establish “affirmative
indications of innocence.”
Moreover, the realities of handling cases in highvolume jurisdictions may make it impracticable to
give a full accounting of the reasons for dismissal in
every case, especially for misdemeanors and low-level
crimes. As Thompson’s criminal defense lawyer
testified at trial:
The nature of criminal court as it’s practiced in
New York City is that there is an assigned
attorney in each courtroom who just has a stack
of files and [] stands up on every case [] that’s
in front of them and their files aren’t always
detailed they’re just reading from whatever
notes the actual . . . district attorney assigned
to particular cases has left for them. . . . So the
assistant speaking in court is not necessarily
the person who has reviewed the case and made
a decision about it.
Pet. App. 32a.

10
The Second Circuit rule ignores the practical
circumstances in which prosecutorial decisions to
dismiss are made, imposing an unrealistic and
unwarranted burden on a criminal defendant with a
valid claim of unreasonable seizure pursuant to legal
process. As the Eleventh Circuit noted, “limiting
favorable terminations to those that affirmatively
support a plaintiff’s innocence redirects the focus to
whether the entire prosecution was justified” by
considering “the wrong body of information.” Laskar,
972 F.3d at 1292.
The Second Circuit rule also arbitrarily favors
defendants in jurisdictions where prosecutors or
courts are required to put reasons for dismissal on the
record, while disfavoring those in jurisdictions where
prosecutors may unilaterally dismiss with no reasons
at all, or where the rules requiring reasons on the
record are largely ignored in practice (as appears to
have been the case for Petitioner Thompson).
The facts of Manuel v. City of Joliet, 137 S. Ct. 911
(2017), illustrate the potential for unjust results.
According to Manuel’s allegations, he was accosted by
police officers who beat him and unlawfully searched
him. They found a bottle of vitamins on his body, and
field drug tests came back negative.
They
nevertheless fabricated a positive result and arrested
Manuel for drug possession. He was jailed pretrial
based on the false evidence. Two weeks later a police
laboratory re-examined the seized pills and
determined that they contained no controlled
substances, though the prosecutor did not dismiss the
case for another month, during which time Manuel
remained in jail. Id. at 915. Subsequently, Manuel

11
sued the city and several police officers under § 1983
for violations of the Fourth Amendment. Id. at 916.
The district court did not determine whether or
how the favorable termination rule should be applied
to Manuel’s claim because it dismissed the claim on
other grounds, which were affirmed by the Seventh
Circuit but reversed by this Court. Id. Nevertheless,
the facts of that case illustrate the unfairness and
perverse incentives of the Second Circuit rule. Were
that rule applied to the facts of Manuel in a
jurisdiction that requires a prosecutor to give reasons
for dismissal and obtain the court’s approval, it
appears self-evident that dismissal based on a
conclusive laboratory test showing no illicit
substances would be indicative of innocence, and
Manuel’s claim would be cognizable. But were the
Second Circuit rule applied to the same facts in a
jurisdiction that does not require court approval, the
prosecutor could simply enter a nolle prosequi without
providing a reason or disclosing the test results.
Indeed, she would have little incentive to divulge the
results, which might subject her to criticism for delay.
And even in a jurisdiction that requires court
approval, but not reasons for dismissal, she may
simply move the court for dismissal “in the interests
of justice,” as the prosecutor did in Petitioner
Thompson’s case, without providing additional
details. In either of these latter circumstances, the
dismissal would be insufficient to show favorable
termination under the Second Circuit rule, and
Manuel’s claim would be rejected.
The Eleventh Circuit’s rule—deeming a formal
end to a prosecution to be “favorable termination” if it

12
is “not inconsistent with . . . innocence,” Laskar, 972
F.3d at 1295—creates none of this inequity. By
removing a prosecutor’s reasons for dismissal from
determinations about civil liability for unreasonable
seizures pursuant to legal process, the Eleventh
Circuit’s rule not only protects prosecutorial decisionmaking from undue outside influence, it also reflects
the
practical
circumstances
surrounding
prosecutorial decisions to dismiss.
B. The Second Circuit Rule Favors
Defendants
Whose
Cases
are
Terminated by Acquittal or PostConviction Remedies
In contrast to the Eleventh Circuit’s rule, the
Second Circuit rule imposes an arbitrary heightened
innocence requirement on dismissals in comparison to
other forms of “favorable termination” of criminal
charges. This differential treatment illustrates how
far the Second Circuit rule strays from the favorabletermination requirement’s goal of avoiding “‘a
collateral attack on the conviction through the vehicle
of a civil suit.’” Heck, 512 U.S. at 484 (citation
omitted). Moreover, it creates a strange imbalance in
the justice system, in which a defendant whose
charges are dismissed before trial may not sue, but a
defendant who is acquitted at trial—or succeeds in
overturning his conviction on appeal or collateral
attack—may obtain damages.
This Court has made clear that a defendant who is
acquitted after trial “unquestionably” has met the
favorable-termination requirement to permit a § 1983
suit. McDonough, 139 S. Ct. at 2160 n.10 (2019). But,

13
as this Court has noted, “an acquittal on criminal
charges does not prove that the defendant is innocent;
it merely proves the existence of a reasonable doubt
as to guilt.” United States v. One Assortment of 89
Firearms, 465 U.S. 354, 361 (1984). In other words, a
finding of “not guilty” is required where the evidence
of guilt does not reach the high standard of “beyond a
reasonable doubt” for a particular jury, even if the
jurors generally do not believe the defendant is
innocent. As one commentator has explained:
A “Not Guilty” verdict can result from either
of two states of mind on the part of the jury:
that they believe the defendant is factually
innocent and did not commit the crime; or,
although they do not necessarily believe he
is innocent, and even “tend” to believe he did
commit the crime, the prosecution’s case
was not sufficiently strong to convince them
of his guilt beyond a reasonable doubt. . . .
Since a “Not Guilty” verdict can be
predicated on that “gray zone” of
uncertainty somewhere between a belief in
innocence and the required proof of guilt, it
would be incorrect to state that a conclusion
of “Not Guilty” means that the jury believes
the defendant is innocent.
Vincent Bugliosi, Not Guilty and Innocent—The
Problem Children of Reasonable Doubt, 4 Miss. C. L.
Rev. 47, 51, 53 (1983).
As discussed above, prosecutors are obligated to
seek dismissal where they believe that a jury would
find there is a reasonable doubt as to guilt. Indeed, in

14
the experience of amici, cases dismissed by
prosecutors before trial—including where no reasons
are placed on the record that support the defendant’s
innocence—typically feature weaker evidence of guilt
than those that proceed to trial but end in acquittal.
In such cases, the Second Circuit rule precludes a
§ 1983 claim based on an unreasonable seizure
pursuant to legal process. But if a jury applies the
exact same standard and reaches the same
conclusion, even where there is greater evidence of
guilt, then a civil cause of action may proceed.
Indeed, in cases of jury nullification, juries have
returned “not guilty” verdicts because of a
disagreement with the law or with the severity of
punishment, despite believing that the prosecutor has
proved each element of the offense. See Woodson v.
North Carolina, 428 U.S. 280, 294 n.29 (1976) (citing
evidence that jurors refused to convict in death
penalty cases to avoid the imposition of capital
punishment); Clay S. Conrad, Jury Nullification: The
Evolution of a Doctrine 278 (Cato Inst., 2014),
available at https://perma.cc/VH26-JYBE (noting
that, in some parts of the country, federal juries have
engaged in nullification with “some frequency” as a
result of disagreements with sentencing guidelines).
Because juries are rarely required to explain the
reasoning behind their decisions, it is entirely
possible under the Second Circuit rule that a civil
cause of action would be available to a guilty
defendant acquitted by jury nullification, but denied
to a similarly situated individual whose case was
dismissed before trial.

15
The disparate treatment of dismissals and trial
acquittals is not the only inequitable outcome of the
Second Circuit rule. In Heck, this Court held that a
criminal defendant who has been convicted satisfies
the “favorable termination” requirement if the
conviction was “reversed on direct appeal, expunged
by executive order, declared invalid by a state
tribunal authorized to make such determination or
called into question by a federal court’s issuance of a
writ of habeas corpus.” 512 U.S. at 486–87. Thus,
despite the fact that the defendant was actually
convicted of a crime in each of these scenarios, the
favorable termination of the proceedings necessary to
bring a § 1983 claim ordinarily can be established
without “affirmative indications of innocence.”
Reversal on direct appeal, for example, could be
based on evidentiary error determined not to be
harmless, but that does not affirmatively indicate
innocence. Indeed, on retrial, the prosecutor might
introduce other evidence that she learned of after the
first trial or that she did not introduce at the first
trial, which would support a conviction. But the
prosecutor might decide not to retry the case for many
reasons, including a determination that any sentence
already served by the defendant was sufficient to
achieve justice, a desire not to re-burden victims and
witnesses with a retrial, or a need to conserve
prosecutorial resources. Yet under Heck, the reversal
on appeal would be considered a favorable
termination, while a defendant whose charges were
dismissed without reasons pretrial would be left with
no way to establish “affirmative indications of
innocence.”

16
Not even habeas corpus review requires an
affirmative showing of innocence.
Rather, on
collateral review, a conviction may be overturned
based on a trial error if it “had substantial and
injurious effect or influence in determining the jury’s
verdict.” Brecht v. Abrahamson, 507 U.S. 619, 638
(1993). Requiring a higher standard where criminal
charges were dismissed before trial makes little
sense.
III. BARRING CIVIL RIGHTS CLAIMS WHERE
CRIMINAL
CHARGES
ARE
DISMISSED
UNDERMINES FAITH IN THE JUSTICE
SYSTEM
As current and former prosecutors and former
Department of Justice officials and judges, amici have
a special interest in “preserving public confidence in
the fairness of the criminal justice system.” Lockhart
v. McCree, 476 U.S. 162, 174–75 (1986) (internal
quotations and citation omitted). Without the public’s
trust and cooperation, the justice system cannot
effectively protect public safety. When community
members do not perceive the justice system as fair,
they are less inclined to faithfully fulfill their
essential roles reporting crime, testifying as
witnesses, and serving as jurors. Yet trust between
prosecutors and community members is disserved
when a prosecutor’s decision to dismiss a case based
on lack of evidence effectively thwarts a valid civil
claim based on police misconduct.
Amici recognize that a great deal of public
discourse about dissatisfaction with the justice
system focuses on a lack of accountability for law

17
enforcement officers who infringe on individual
rights. This concern is particularly acute at a time
when a mass movement against misconduct by law
enforcement has resulted in protests across the
United States. See, e.g., Larry Buchanan et al., Black
Lives Matter May Be the Largest Movement in U.S.
History,
N.Y.
Times
(July
3,
2020),
https://perma.cc/H9AL-2FV6. It is essential to the
work of amici that the justice system be perceived as
providing an adequate remedy for constitutional
violations by law enforcement. Additionally, effective
prosecutions require constitutional police work. The
Second Circuit rule adversely affects prosecutors by
providing an unnecessary obstacle to police
accountability that undermines trust in the criminal
justice system and fails to adequately deter police
misconduct.
Amici urge this Court to reverse the decision of the
Second Circuit below in order to make clear that, in
cases where charges were dismissed before or during
trial, a defendant need not establish that the
dismissal bore “affirmative indications of innocence”
to meet the favorable termination requirement of
Heck for § 1983 claims based on unreasonable seizure
pursuant to legal process. Dismissals instead should
be considered to constitute favorable termination
where they are not inconsistent with innocence.

18
CONCLUSION
For the foregoing reasons, amici respectfully urge
this Court to reverse the decision below.
Respectfully submitted,
MARY B. MCCORD
Counsel of Record
KELSI BROWN CORKRAN
AMY L. MARSHAK
SETH WAYNE
INSTITUTE FOR
CONSTITUTIONAL
ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY
LAW CENTER
600 New Jersey Ave., N.W.
Washington, DC 20001
(202) 661-6607
mbm7@georgetown.edu
June 11, 2021

A-1
APPENDIX: LIST OF AMICI CURIAE
Donald B. Ayer, former Deputy Attorney General of
the United States; former U.S. Attorney for the
Eastern District of California.
Buta Biberaj, Commonwealth's Attorney, Loudoun
County, Virginia.
Chesa Boudin, District Attorney, San Francisco,
California.
Bobbe J. Bridge, former Justice, Supreme Court of
Washington State.
Michael R. Bromwich, former Inspector General,
U.S. Department of Justice; former Chief, Narcotics
Unit, U.S. Attorney’s Office for the Southern District
of New York.
A. Bates Butler III, former U.S. Attorney for the
District of Arizona.
Bonnie Campbell, former Attorney General, State of
Iowa.
Kimberly B. Cheney, former Attorney General,
State of Vermont.
James M. Cole, former Deputy Attorney General of
the United States.
Thomas Corbett, former Attorney General, State of
Pennsylvania; former U.S. Attorney for the Western
District of Pennsylvania.
Michael Cotter, former U.S. Attorney for the District
of Montana.

A-2
John Creuzot, District Attorney, Dallas County,
Texas.
William B. Cummings, former U.S. Attorney for the
Eastern District of Virginia.
Margaret E. Curran, former U.S. Attorney for the
District of Rhode Island.
Michael H. Dettmer, former U.S. Attorney for the
Western District of Michigan.
Richard Doran, former Attorney General, State of
Florida.
Michael T. Dougherty, District Attorney, Twentieth
Judicial District (Boulder County) Colorado.
Edward L. Dowd, Jr., former U.S. Attorney for the
Eastern District of Missouri.
George C. Eskin, former Judge, Santa Barbara
County Superior Court, California; former Assistant
District Attorney, Ventura and Santa Barbara
Counties, California, former Chief Assistant City
Attorney, Criminal Division, City of Los Angeles,
California.
Noel Fidel, former Chief Judge, Arizona Court of
Appeals, Division One; former Presiding Civil Judge,
Superior Court of Maricopa County, Arizona.
John P. Flannery II, former Assistant U.S.
Attorney, U.S. Attorney's Office for the Southern
District of New York.
Kimberly M. Foxx, State’s Attorney, Cook County,
Illinois.

A-3
Gil Garcetti, former District Attorney, Los Angeles
County, California.
Stanley Garnett, former District Attorney, Boulder
County, Colorado.
John Geise, former Chief of the Professional
Misconduct Review Unit, U.S. Department of Justice;
former Assistant U.S. Attorney, U.S. Attorney’s Office
for the District of Columbia; former Assistant U.S.
Attorney, U.S. Attorney’s Office for the District of
Maryland.
Nancy Gertner, former Judge, U.S. District Court for
the District of Massachusetts.
John Gleeson, former Judge, U.S. District Court for
the Eastern District of New York; former Assistant
U.S. Attorney, U.S. Attorney's Office for the Eastern
District of New York.
James P. Gray, former Judge, Superior Court of
Orange County, California; former Assistant U.S.
Attorney, U.S. Attorney’s Office for the Central
District of California.
Gary G. Grindler, former Acting Deputy Attorney
General of the United States; former Deputy Assistant
Attorney General for the Criminal Division, Principal
Associate Deputy Attorney General, Chief of Staff to
the Attorney General, and Deputy Assistant Attorney
General for the Civil Division, U.S. Department of
Justice; former Assistant U.S. Attorney, U.S.
Attorney’s Office for the Southern District of New
York; former Assistant U.S. Attorney, U.S. Attorney’s
Office for the Northern District of Georgia.

A-4
Barry R. Grissom, former U.S. Attorney for the
District of Kansas.
Nancy Guthrie, former Judge, Ninth Judicial
District, Wyoming.
Andrea Harrington, District Attorney, Berkshire
County, Massachusetts.
Peter Harvey, former Attorney General, State of
New Jersey.
John Hummel, District Attorney, Deschutes County,
Oregon.
Bruce Jacob, former Assistant Attorney General,
State of Florida.
Peter Keisler, former Acting Attorney General of the
United States; former Assistant Attorney General for
the Civil Division and Acting Associate Attorney
General, U.S. Department of Justice.
Miriam Aroni Krinsky, former Assistant U.S.
Attorney and Chief, Criminal Appeals Section, U.S.
Attorney’s Office for the Central District of California;
former Chair, Solicitor General’s Advisory Group on
Appellate Issues.
Corinna Lain, former Assistant Commonwealth’s
Attorney, Richmond, Virginia.
Scott Lassar, former U.S. Attorney for the Northern
District of Illinois.

A-5
Steven H. Levin, former Assistant U.S. Attorney and
Deputy Chief, Criminal Division, U.S. Attorney's
Office for the District of Maryland; former Assistant
U.S. Attorney, U.S. Attorney's Office for the Middle
District of North Carolina.
J. Alex Little, former Assistant U.S. Attorney, U.S.
Attorney's Office for the District of Columbia; former
Assistant U.S. Attorney, U.S. Attorney's Office for the
Middle District of Tennessee.
Beth McCann, District Attorney, 2nd Judicial
District (Denver County), Colorado.
Mary B. McCord, former Acting Assistant Attorney
General and Principal Deputy Assistant Attorney
General for National Security, U.S. Department of
Justice; former Assistant U.S. Attorney and Chief,
Criminal Division, U.S. Attorney’s Office for the
District of Columbia.
Barbara L. McQuade, former U.S. Attorney for the
Eastern District of Michigan.
Marilyn Mosby,
Maryland.

State’s

Attorney,

Baltimore,

Jerome O’Neill, former Acting U.S. Attorney,
District of Vermont; former Assistant U.S. Attorney,
U.S. Attorney’s Office for the District of Vermont.
Wendy Olson, former U.S. Attorney for the District
of Idaho.
Stephen M. Orlofsky, former Judge, U.S. District
Court for the District of New Jersey.

A-6
Terry L. Pechota, former U.S. Attorney for the
District of South Dakota.
Titus D. Peterson, former Lead Felony Prosecutor,
Fifth Judicial District Attorney’s Office, Colorado.
J. Bradley Pigott, former U.S. Attorney for the
Southern District of Mississippi.
Richard Pocker, former U.S. Attorney for the
District of Nevada.
Karl A. Racine, Attorney General for the District of
Columbia.
Ira Reiner, former District Attorney, Los Angeles
County, California; former City Attorney, City of Los
Angeles, California.
Stephen D. Rosenthal, former Attorney General,
Commonwealth of Virginia.
Rachael Rollins, District Attorney, Suffolk County,
Massachusetts.
Barry Schneider, former Judge, Maricopa County
Superior Court, Arizona.
Carol A. Siemon, former Prosecuting Attorney,
Ingham County, Michigan.
Neal R. Sonnett, former Assistant U.S. Attorney and
Chief, Criminal Division, U.S. Attorney’s Office for the
Southern District of Florida.
Carter Stewart, former U.S. Attorney for the
Southern District of Ohio.

A-7
Shannon Taylor, Commonwealth’s
Henrico County, Virginia.

Attorney,

Marsha Ternus, former Chief Justice, Supreme
Court of Iowa.
Raúl Torrez, District Attorney, Bernalillo County,
New Mexico.
Anthony
Troy,
former
Commonwealth of Virginia.

Attorney

General,

Joyce White Vance, former U.S. Attorney for the
Northern District of Alabama.
Atlee W. Wampler III, former U.S. Attorney for the
Southern District of Florida; former Attorney-InCharge, Miami Organized Crime Strike Force,
Criminal Division, U.S. Department of Justice.
Seth Waxman, former Solicitor General of the United
States.
Francis Wikstrom, former U.S. Attorney for the
District of Utah.
William D. Wilmoth, former U.S. Attorney for the
Northern District of West Virginia.
Grant Woods, former Attorney General, State of
Arizona.

